<html>
<title> - [H.A.S.C. No. 113-89] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                     

 
                         [H.A.S.C. No. 113-89]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                   FISCAL YEAR 2015 NATIONAL DEFENSE

                      AUTHORIZATION BUDGET REQUEST

                    FROM THE U.S. SPECIAL OPERATIONS

     COMMAND AND THE POSTURE OF THE U.S. SPECIAL OPERATIONS FORCES

                               __________

                              HEARING HELD
                             MARCH 13, 2014





                  U.S. GOVERNMENT PRINTING OFFICE
87-801                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

                                     
[GRAPHIC] [TIFF OMITTED] 




    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman

JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                SUSAN A. DAVIS, California
BILL SHUSTER, Pennsylvania           HENRY C. ``HANK'' JOHNSON, Jr., 
RICHARD B. NUGENT, Florida               Georgia
TRENT FRANKS, Arizona                ANDRE CARSON, Indiana
DUNCAN HUNTER, California            DANIEL B. MAFFEI, New York
CHRISTOPHER P. GIBSON, New York      DEREK KILMER, Washington
VICKY HARTZLER, Missouri             JOAQUIN CASTRO, Texas
JOSEPH J. HECK, Nevada               SCOTT H. PETERS, California
                Peter Villano, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                          Julie Herbert, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, March 13, 2014, Fiscal Year 2015 National Defense 
  Authorization Budget Request from the U.S. Special Operations 
  Command and the Posture of the U.S. Special Operations Forces..     1

Appendix:

Thursday, March 13, 2014.........................................    25
                              ----------                              

                        THURSDAY, MARCH 13, 2014
FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
  U.S. SPECIAL OPERATIONS COMMAND AND THE POSTURE OF THE U.S. SPECIAL 
                           OPERATIONS FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Intelligence, Emerging Threats 
  and Capabilities...............................................     1
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Intelligence, Emerging Threats and Capabilities     1

                               WITNESSES

Lumpkin, Hon. Michael D., Assistant Secretary of Defense for 
  Special Operations and Low-Intensity Conflict, Office of the 
  Secretary of Defense...........................................     2
McRaven, ADM William H., USN, Commander, U.S. Special Operations 
  Command........................................................     4

                                APPENDIX

Prepared Statements:

    Lumpkin, Hon. Michael D......................................    29
    McRaven, ADM William H.......................................    42

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Gibson...................................................    60
    Mr. Johnson..................................................    59
    Mr. Langevin.................................................    59

Questions Submitted by Members Post Hearing:

    Mr. Carson...................................................    67
    Mr. Gibson...................................................    68
    Mr. Thornberry...............................................    63
FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
  U.S. SPECIAL OPERATIONS COMMAND AND THE POSTURE OF THE U.S. SPECIAL 
                           OPERATIONS FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                   Subcommittee on Intelligence, Emerging  
                                  Threats and Capabilities,
                          Washington, DC, Thursday, March 13, 2014.
    The subcommittee met, pursuant to call, at 2:24 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Thornberry. The subcommittee will come to order.
    Again, appreciate everyone's flexibility with rooms and 
times. And we are anxious to have this open hearing, and then, 
as Members know, we will continue in closed session downstairs 
just across the hall from the Intelligence Committee once the 
closed session has concluded.
    I will just say welcome to our witnesses. I believe this 
will be the first time that Assistant Secretary Lumpkin has 
testified in front of our subcommittee.
    We are glad to have you.
    Admiral McRaven has been testifying a lot lately on both 
this side and the other side of the Capitol.
    We are always grateful for your openness and your 
willingness to engage with this committee on all--a whole range 
of issues, and that includes being here today.
    So, with that, I will yield to the distinguished gentleman 
from Rhode Island for any comments he would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
  RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE, 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman.
    Secretary Lumpkin and Admiral McRaven, I want to thank you 
very much for being here today. And we truly appreciate your 
service to the Nation, and we certainly hope that you will pass 
on our gratitude to all the men and women who serve under each 
of you in your charge when you see them next. And, again, thank 
you again for the work that you are doing.
    The report of the 2014 Quadrennial Defense Review [QDR] 
makes clear that our special operations forces [SOF] will 
remain an integral part of the way the United States addresses 
our global and national security interests today and in the 
future.
    Even as we draw down in Afghanistan, the QDR calls for the 
growth in SOF and for them to remain decisively committed to 
our fight against Al Qaeda. It also highlights their role in 
dealing with other transnational threats, countering the 
spread--or use of WMD [weapons of mass destruction] and, of 
course, the critical part in helping to build the capacity of 
our partner security forces as well.
    Clearly it is a busy future for SOF, and even in our era of 
reduced defense resources, that is why I am pleased to see 
Secretary Lumpkin's renewed effort at strengthening SO/LIC's 
[Special Operations/Low-Intensity Conflict's] oversight over 
SOCOM [Special Operations Command] and ensuring that Admiral 
McRaven's forces are properly trained, manned, and equipped.
    I know that Admiral McRaven presented SOCOM's posture 
statement to the full committee earlier this month, but I am 
glad to see you here today together. It is not unlike the 
service posture hearings we have at the full committee with the 
service secretaries and the chiefs together.
    Not to detract from the role the subcommittee plays but, 
rather, to emphasize the importance of SOCOM and the role of 
SO/LIC, perhaps this is the way the full committee should treat 
SOCOM's posture statement in the future.
    So now, as we proceed, I will be interested to hear if your 
acquisition authorities remain flexible enough to provide SOF 
what it needs without duplicating other service acquisition 
efforts.
    Are your research and development accounts funded so that 
you can continue to set the pace to superior technology? Does 
your set of existing authorities, both statutory and command, 
provide you with the space in which to properly operate? And, 
finally and most importantly, how are your people and their 
families faring, and what can we do to help you take care of 
them properly?
    Thank you, Mr. Chairman. And I yield back.
    Mr. Thornberry. I thank the gentleman.
    Without objection, your full statements will be made a part 
of the record.
    And if you would like to summarize, Secretary Lumpkin--
again, thanks for being here--you may proceed.

 STATEMENT OF HON. MICHAEL D. LUMPKIN, ASSISTANT SECRETARY OF 
  DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY CONFLICT, 
               OFFICE OF THE SECRETARY OF DEFENSE

    Secretary Lumpkin. Thank you, Chairman Thornberry, Ranking 
Member Langevin, distinguished members of the committee. Thank 
you for your steadfast support for our special operators and 
the U.S. Special Operations Command.
    The authorities and appropriations that Congress has 
provided the Department of Defense have allowed us to prosecute 
the current fight and ensure we are prepared to confront 
emerging threats and to protect the homeland.
    I am pleased to testify here today with Admiral Bill 
McRaven, who has expertly led the United States Special 
Operations Command over the past 3 years.
    The threat we face, especially from Al Qaeda, is continuing 
to change. Although the scale of the threat to the homeland has 
diminished, threats to our interests overseas are actually 
increasing.
    With their leadership depleting, Al Qaeda still retains 
sanctuaries in remote areas of Afghanistan, Pakistan, Yemen, 
and Somalia. Terrorist organizations are also expanding in 
Syria, North Africa, and the Sahel. The threat continues to 
evolve. We must maintain pressure on terrorist organizations to 
protect the homeland.
    We are in a time of transition. We face a yet undetermined 
drawdown in Afghanistan and new fiscal realities. It may become 
more difficult to maintain pressure on Al Qaeda in their 
traditional safe havens. I closely monitor how the cuts to the 
services impact the readiness of USSOCOM.
    We are assessing the impact on critical enablers. For 
example, we are ensuring that the cuts to the ISR 
[intelligence, surveillance, and reconnaissance] fleet will not 
erode our capabilities to find, fix, and finish targets. As we 
transition in Afghanistan and redistribute SOF into other 
theaters, we need to ensure our operations and maintenance 
accounts are resourced to support operations.
    In accordance with the fiscal year 2014 National Defense 
Authorization Act, ASD [Assistant Secretary of Defense] SO/LIC 
and the Under Secretary of Defense for Acquisition, Technology, 
Logistics are strengthening our roles in the oversight of 
USSOCOM to maximize efficiencies and maintain oversight 
responsibilities over Major Force Program-11 funds. These 
include routine interactions between my staff and USSOCOM and 
frequent dialogue between me and Admiral McRaven.
    We owe the President the best strategic options to 
accomplish our national security objectives. This includes--
this is conducted in close coordination and honest discussion 
with the Congress as you exercise your oversight, 
authorization, and appropriations responsibilities.
    We are moving from a state of perpetual war to perpetual 
engagement, engaging with partners to build their capacity, 
engaging problems before they become too big to fix, and 
engaging in direct and indirect action to disrupt and destroy 
our enemies.
    As we move towards a globally networked perpetual 
engagement, our efforts are grounded in experiences that 
demonstrate the success of this approach. Colombia and 
Philippines are case studies in how small investment of SOF 
resourced for an enduring timeframe can have positive results.
    In the Philippines, a task force of about 500 special 
operators and supporting general purpose forces helped degrade 
a serious transnational terrorist threat from Abu Sayyaf and 
Jamaah Islamiyah.
    In Colombia, we provided counterinsurgency training and 
humanitarian assistance to prevent narcotics traffickers from 
developing sanctuaries. This effort in Colombia not only 
resulted in a far more secure and prosperous nation now, it has 
emerged as a great exporter of regional security.
    We have the same opportunities in Africa and the Middle 
East. Our support to the French in the Sahel has been critical 
in stemming the tide of extremism in Mali.
    Modest support to AMISOM [African Union Mission to Somalia] 
in the Horn of Africa has helped reverse the trajectory of al-
Shabaab. These discrete activities and operations constitute a 
global SOF network required for perpetual vigilance.
    I am proud to represent the sailors, soldiers, airmen, 
marines, and civilians of USSOCOM. Their sacrifice in this war 
are immense. Since October 2001, 385 special operators have 
been killed in action and another 2,160 have been wounded.
    I am committed to do everything I possibly can to ensure 
these brave warriors have the best training, equipment, and 
support we can provide. Working closely with Congress, we will 
surely have the right strategies and policies in place to 
employ them effectively.
    Thank you for your support, and I look forward to your 
questions.
    [The prepared statement of Secretary Lumpkin can be found 
in the Appendix on page 29.]
    Mr. Thornberry. Thank you.
    Admiral.

   STATEMENT OF ADM WILLIAM H. MCRAVEN, USN, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Chairman Thornberry, Ranking Member 
Langevin, distinguished members of the committee, thank you 
again for the opportunity to address you today.
    I would also like to recognize my friend and colleague, 
Assistant Secretary Michael Lumpkin. Mike and I have a long 
history together, and I greatly value ASD SO/LIC's partnership 
and oversight of USSOCOM.
    Mr. Chairman, I am pleased to say that, since my last 
hearing, SOCOM has made some great strides in dealing with 
current conflicts, preparing for the future conflicts, and, 
most importantly, taking care of our people.
    SOCOM continues to provide the finest warriors in the world 
to the fight in Afghanistan and, as we approach the end of 
2014, your special operations forces will be ready to adjust to 
whatever decisions are made regarding our future employment in 
that country.
    Globally, we are developing plans to better serve the 
geographic combatant commanders [GCCs] and the chiefs of 
mission who, owing to the past 12 years of engagement in Iraq 
and Afghanistan, have gone under-resourced with SOF forces.
    SOCOM, as the Department of Defense's [DOD] synchronizer 
for the war on terrorism, is also working hard to help better 
coordinate our activities locally, regionally, and globally 
with both the GCCs and the U.S. ambassadors.
    I believe the future of U.S. special operations will be in 
helping to build partner capacity with those willing nations 
who share our interest. This will mean strengthening our 
existing allied relationships and building new ones. No nation 
alone can stem the rise of extremism. We need our friends and 
allies more now than ever before.
    Our future as a special operations force is also 
inextricably linked to the general purpose force in the 
interagency. The past 12 years have shown us that a whole-of-
government effort is required to be successful against 
extremism, and in SOF we have always, always, relied heavily on 
our fellow soldiers, sailors, airmen, and marines for support 
around the globe.
    Finally, we have gone to great lengths to take care of our 
most precious resource, our people. The Preservation of the 
Force and Families initiative, or the POTFF, has already seen a 
marked improvement in the morale and well-being of those who 
serve in SOF. While we still suffer from the tragedy of high 
suicide rates, I believe we have laid the foundation for 
keeping our force and their families strong and resilient into 
the future.
    Once again, sir, thank you for your interest and unwavering 
support for the men and women in the special operations 
community and to those members of the committee, thank you. I 
look forward to your questions.
    [The prepared statement of Admiral McRaven can be found in 
the Appendix on page 42.]
    Mr. Thornberry. Thank you. I appreciate the testimony of 
you both.
    Admiral, I was struck when you testified in the full 
committee posture hearing, and I believe you said, essentially, 
the most important thing we can do to fight terrorism is 
working with others. And you just reiterated that the future of 
special operations is building partnership capacity.
    Have I got that right as far as the most important thing we 
can do, in your view, to fight terrorism?
    And then, secondly, my perception is we are very good, best 
in the world, at a variety of direct action and so forth, but 
we are still evolving our authorities, our organizations, our 
skills even, on building partnership capacity, this thing that 
you say is the most important.
    Do you agree with my perception of where we are?
    Admiral McRaven. Sir, I do. And to maybe not clarify my 
words, but to add some emphasis on this, I think the most 
important thing to kind of fight the extremist threat that is 
out there is keep the pressure on them.
    I think the way we do that in the special operations 
community is by building partner capacity so that the host 
nation where the extremists live, they can take care of their 
own security problems.
    So I do think that that is the best tool we have, 
recognizing, however, that we are always going to have to be in 
a position to conduct direct action against those 
irreconcilables.
    Mr. Thornberry. Okay. Let me just ask one other question 
right quick.
    I had a Member of Congress within the past few weeks come 
to me and say, ``Look at how much money Special Operations is 
asking for in the President's budget. That is nearly as much 
money as the Marine Corps is asking for, and they have a lot 
fewer people.''
    What is your answer to the question of why Special 
Operations Command, with fewer people, requires the funding 
that it does require?
    I mean, it is one of the only--one of only--really, two 
areas in the budget where funding is going up was special 
operations and cyber.
    But what is your answer to folks who say, ``Why is this so 
expensive?''
    Admiral McRaven. Yes, sir. The fact of the matter is it 
takes a lot to kind of grow a special operations operator. So 
when you look at the time from the time we bring them into the 
SOF community--and most of them, historically, the data will 
show that they spend about 7 to 8 years in the general purpose 
force.
    So you see the general purpose force already picks up a 
certain amount of the financing of the base-level training. So 
by the time they hit, you know, E-5, some of them E-6, that is 
when they come into the special operations community.
    Then to really make them world-class in--whether that is 
language, cultural training, direct action training, 
reconnaissance, it just takes more to train an average SOF 
soldier than it does a basic infantryman in the Marine Corps or 
in the Army.
    And, obviously, as we look at the technology that we are 
able to apply against a problem set, that really isn't 
scalable, to some degree, across broad brigades or battalions.
    It is scalable if you want to provide everybody in your 
squad a radio. If you want to make sure that ISR is supporting 
a platoon or an ODA [official development assistance] level 
operation, we have the resources to do that because it requires 
special technology and specially trained people to do the 
missions that we are being asked to do.
    Mr. Thornberry. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you again, gentlemen.
    So, Admiral McRaven, as you--I am sure you know that this 
committee has been very interested in support of the 
development and fielding of directed-energy weapons to support 
military applications, and we understand that SOCOM, supported 
by JIEDDO [Joint Improvised Explosive Device Defeat 
Organization], has been funding development of a manned 
portable high-energy laser system to address SOCOM particular 
needs.
    Could you talk a little bit about the status of this 
development effort as well as what actions have been taken to 
test and potentially field such a weapons system.
    Admiral McRaven. Yes, sir. As you point out, we have been 
working with the JIEDDO. They have provided us some funding to 
do some initial testing with the manned portable high-energy 
weapons.
    I do think that we have a future in looking at the high-
energy weapons. The problems we have right now, of course, is 
we are going through to make sure that we are in compliance 
with the law.
    The laser safety law is something we have to make sure that 
whatever manned portable device we have is compliant with that, 
and then there are some health laws and others that we have got 
to take into consideration as we are doing the testing.
    We have done some basic-level testing in the continental 
United States. The results of that I have not seen, sir; so, I 
am happy to get back to you and take that one for the record.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Langevin. Thank you, Admiral.
    And right now what is the current status of SOCOM's 
Undersea Mobility Program? And what gaps do you foresee?
    Admiral McRaven. Sir, we have two areas in our Undersea 
Mobility that we are looking at. We have a smaller version, a 
wet submersible, the SWCS [shallow water combat submersible] we 
refer to it, and then we have our dry combat submersible.
    So the dry combat submersible, we currently have a vessel 
that we are leasing, and we are doing some test and evaluation 
on that. And then we have two prototypes that are being built, 
one in the U.K. [United Kingdom] and one in Italy.
    The eventual program of record is looking at a total of 
three dry combat submersibles. This really puts us in a 
position to have our SEALs [Sea, Air and Land forces] in this 
case, but other operators, in a dry environment as they transit 
from point A to point B.
    The shallow water combat submersible, the SWCS, is a new 
variation, new technology based on our old SEAL delivery 
vehicle. So a wet submersible, a little bit more limited 
capability than the dry submersible.
    But, frankly, we need both. The wet submersible will be 
able to get into regions where the dry submersible will not, 
but you have to have both capabilities. So we are looking at a 
program of record of about 10 shallow water combat 
submersibles.
    The dry combat submersible, sir, is on track, and we are 
pleased with the direction we are heading. We have been working 
with the Navy on classifying this, as you know, classification, 
making sure that we are meeting industry standards for dry 
combat submersibles, and the Navy again has been working with 
us and doing this.
    This submersible, the dry combat submersible, will not be 
attached to a larger submarine. So that actually allows me to 
buy down some of the risk as we are building the vessel itself.
    The shallow water submersible, again, we are working with 
the Navy in developing that. And while we have had a little bit 
of slippage in the development because it is a new piece of 
equipment, I am confident we will be on track to produce the 
right number, sir.
    Mr. Langevin. And I know that the submersible--that we had 
problem--technical problems with those in the past.
    Have those been substantially overcome?
    Admiral McRaven. Yes, sir. In fact, sir, that is why we are 
actually going through an industry standard and looking at 
prototypes before we get into a final build.
    So by looking at how industry works their dry submersibles, 
we think we are going to learn a lot in terms of kind of a 
systemic approach to building the dry submersible that industry 
is very good at doing.
    And then we will take the lessons learned from there and 
incorporate them into our long-term dry combat submersible.
    Mr. Langevin. Thank you.
    So the Secretary of Defense has recently commented that SOF 
will grow to 69,700 personnel from roughly 67,000 today, and 
the fiscal year 2015 budget request includes this growth with 
declining budgets.
    How will you ensure that this force will not become hollow? 
How will you ensure you are not choosing quantity over quality?
    And this is for both witnesses.
    Secretary Lumpkin. I think the key is, when we look at the 
numbers of SOF, we are not actually--even though from a 
programmatic view it is 72,000 going down to the 69,700, that 
is not actually a cut in the force. It is actually just 
stemming the growth of the force.
    So because it has been a metered and well thought-out 
process on how we would grow the force, I think that we are 
definitely in a position and a trajectory to make sure that the 
force is robust.
    What I am concerned most about is the cuts in the other 
services that provide the enablers for U.S. Special Operations 
Command. These are the things that are not organic to them, 
whether it is the ships that support them or, as I mentioned in 
my opening comments, the ISR that supports them.
    So that is what I am diligently working on and focusing on 
because that is my greatest concern on making sure SOF 
maintains its capabilities. The services have been absolutely 
great, but there are competing requirements that they are 
having to resource. So I am working diligently with them to 
make sure that doesn't happen.
    Mr. Langevin. Admiral, do you care to comment?
    Admiral McRaven. Yes, sir.
    The only thing I would add is our basic qualification 
courses that we do at basic SEAL training or the special forces 
qualification course we have had to ramp up over the years as 
the demand signal for SOF increased.
    So now we are fortunate to have the infrastructure in place 
to be able to meet the demand signal of the increasing force 
size. So I am not concerned at all, sir, that the quality of 
our force will diminish.
    I can tell you from my experience the quality now is better 
than it has ever been, and I am pleased to say--and that is 
across the board with our soldiers, sailors, airmen, and 
marines, sir.
    Mr. Langevin. Thank you. Thank you, Admiral.
    Thank you, Mr. Secretary. I yield back.
    Mr. Thornberry. Thank you, gentlemen.
    Just to remind all Members, after this open session, we 
will head downstairs for a closed session, hopefully, all 
before votes resume.
    The gentleman from New York, Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman.
    And I welcome the panelists as well and express my deep 
gratitude for your leadership and to your command for their 
achievements and their sacrifices and their families.
    I am going to ask a question on integration and 
cooperation, recognizing we are in open session here, fully 
understanding that, but also recognizing that the American 
people are looking for confidence in what we are doing.
    So to the degree that you can bring it up to in the 
unclassified level, your response helps me communicate so we 
can keep that confidence going.
    In 2009, a radicalized youth gets on an aircraft and is en 
route to our country, lights himself on fire, and it is not our 
system that saves us. It is really a brave soul on the aircraft 
puts him out.
    And it turns out that weeks prior this young man's father 
had called our country and--expressing that he didn't recognize 
his son, that he was talking crazy talk that he could attack 
our country.
    And when I had a chance to come here in 2011, I chatted 
with Admiral Olson, and I asked him--I said, ``Did that call 
ever land on your desk?'' And he said, ``No.''
    And so, you know, working with General Clapper, we worked 
an amendment in the intel authorization bill to try to, you 
know, take some of the effective action that I saw firsthand in 
Iraq in terms of flattening intelligence, linking it with 
operations, and trying to elevate that up to a national-level 
asset.
    And about 10 months or so later he came back and said, 
``You know, we are making progress on the cloud in terms of 
sharing information and, also, budgeting so that we can have 
better integration.''
    So I am interested in hearing how we have been doing in the 
last year on integration within the whole of government--I 
appreciate your opening remarks on that score--and then, also, 
cooperation.
    I couldn't agree more, associate myself, with the remarks 
talking about how important it is that we work with our friends 
and allies.
    And I think that goes across the whole of government as 
well in terms of our diplomacy and how we work and interact 
with countries across the world.
    And then, of course, as--part of that is the deterrent and 
when deterrence fails and when we have irreconcilables, is 
taking direct action there.
    So I am interested in that and certainly understanding the 
classification, but to the extent that I could get a response 
that helps me communicate to the public the confidence that I 
have with you.
    Secretary Lumpkin. The collaboration on the intelligence 
front within the interagency is phenomenal. I mean, my 
relationship with the folks at NCTC [National Counterterrorism 
Center], CIA [Central Intelligence Agency], FBI [Federal Bureau 
of Investigation], DHS [Department of Homeland Security]--I 
mean, and it is just not my relationships. It is the 
departments and how we dialogue and we discuss.
    So we are firing on all eight cylinders. I mean, the 
machine is working. So I feel very confident on the information 
and intelligence sharing that is happening.
    The other piece is the information and intelligence with 
our allies and our partners, and that becomes--because this is 
truly a global challenge that we are facing, the security of 
the United States, because many of the threats, of course, come 
from outside the country. And that is a work in progress.
    I mean, as we build our relationships and we continue to 
build the partner capacity, part of this is to make sure we can 
also have this information and intelligence sharing across the 
national security spectrum.
    Admiral McRaven. And, sir, I would echo the Secretary's 
comments.
    You know, I have a personal and professional relationship 
with Tish Long at NGA [National Geospatial-Intelligence 
Agency]; Mike Flynn at DIA [Defense Intelligence Agency]; John 
Brennan at CIA; Jim Clapper, DNI [Director of National 
Intelligence]; Matt Olson at NCTC. I mean, these are personal 
and professional friends, and they do not hesitate to reach out 
to me personally if they think there is intelligence that is 
worth knowing.
    But in the case of Umar Farouk Abdulmutallab, the underwear 
bomber you were referring to, I am not sure we will ever be 
good enough to see, you know, these individuals that are 
radicalized out in the middle of Yemen, in his case, just 
because, no matter how good our intelligence gets, it is very 
difficult sometimes to get that detailed and that in-depth on a 
particular target.
    So this is why I think, again, we need to continue to build 
our relationships with other host nations so that they may see 
things that we don't see. And those relationships, sir, as you 
indicated, they need to be at the intelligence community level, 
the law enforcement, the mil to mil, the diplomatic levels.
    And I am a very big believer in partnering, and I think 
this is where the tripwires will be crossed in our ability to 
find threats that maybe our intelligence community wasn't 
looking for, but the law enforcement community was, or just 
somebody comes in from the tribal region and says, ``Hey, 
something doesn't seem right here.''
    So--but, again, I would echo the Secretary's sentiments 
that our relationship today is as good as I have ever seen it 
in my 37 years of doing this.
    Mr. Gibson. Well, thanks, gentlemen. My time is just about 
expired.
    So I would ask for the record, if you have recommendations 
as we move towards the mark where we could continue this trend, 
whether it be with regard to resources or approvals, 
authorities, would welcome that.
    [The information referred to can be found in the Appendix 
on page 60.]
    Mr. Gibson. And I thank you, gentlemen.
    I yield back, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And, Secretary Lumpkin and Admiral McRaven, thank you for 
being here. It is good to see you both.
    I wanted to ask you first, Secretary Lumpkin, about the 
Combating Terrorism Technical Support Office [CTTSO]. And you 
mentioned that in your statement, and I certainly have been 
very supportive of a whole-of-government approach.
    Could you share with us, I think, why this investment is 
critical?
    But I also at the same time know that we have a development 
and acquisition center. It seems like there is several 
different entities, and I suspect they interact, but I am a 
little concerned.
    Is there replication and--or duplication, really? And what 
about the other services? Is there some way--as we talk about 
cost, is there some way that some of that effort maybe could be 
more helpful to the other services or vice versa? I mean, how 
much of this is going on that we could streamline a little bit 
more?
    Secretary Lumpkin. Thank you for the question.
    The Counterterrorism Technical Support Office, or CTTSO, is 
truly a unique enterprise in the fact that it partners with not 
only the State Department, but each of the services, the 
combatant commands, and our international allies in order to 
work research and development projects.
    So we have U.S.-U.K. projects. We are working projects in 
support of the U.S. Army where we can actually do cost-sharing 
and bring monies together for a common goal.
    So it truly is a place where we do exactly what you are 
saying, is that we can support people's requirements and we can 
leverage it across the entire defense sector not only in the 
United States, but, also, with our partners.
    So we can take an idea, whether it is a new type of 
ammunition that we need to look at in our support of special 
operations or even law enforcement, and then we can work 
together to do the development and then share the results and 
maybe even find a company or a technology that can provide 
something that we truly don't have today.
    So it is----
    Mrs. Davis. So is that different from DARPA [Defense 
Advanced Research Projects Agency] or does DARPA interface with 
that?
    Secretary Lumpkin. There are discussions that go on. DARPA 
and CTTSO--CTTSO is largely focused on truly the combating 
terrorism piece, whereas the DARPA has a much larger----
    Mrs. Davis. Larger frame.
    Secretary Lumpkin [continuing]. Aperture that they are 
looking at.
    So the other piece of it is the CTTSO gives us the ability 
to--if there is a project that we want to put in the future and 
we see it coming, we can do the initial research and 
development in order to support a future project. So it is 
quite agile and gives us the flexibility to do what we need.
    Mrs. Davis. Admiral McRaven, did you want to comment on 
that? And can we--maybe could we save in some other areas if we 
put, you know, really the resources that you need to do this 
right? And do you have those resources today? Do you think that 
we do?
    Secretary Lumpkin. I think, again, the beauty of CTTSO in 
itself is that it is not just DOD money. I mean, because we are 
taking money--I mean, leveraging money from the interagency as 
well as the international community. So we have this pooling of 
resources for a common goal, and I think that is the real 
beauty of it.
    Mrs. Davis. Is there also a way--and we know from certainly 
the San Diego community and others that there are many 
businesses that would like to be engaged in some way, and 
sometimes what they share with us is it is very difficult for 
them to get the attention for something.
    And I am just wondering, how do you do that in terms of the 
business piece to that so that we can bring those things 
online, innovate quickly, and get the job done?
    Secretary Lumpkin. Well, we have an open forum for business 
that we do once a year before--and make sure they understand 
what we anticipate the requirements are.
    In fact, I just did the opening comments for it here last 
month. So I think it is generally the first week in February we 
do that.
    So we open it to business. We did it at the Reagan Center 
this year, and we had over 600 businesses in attendance who 
came to see what we were looking for at the future.
    Mrs. Davis. Admiral McRaven, General Dunford was with us 
this morning talking about Afghanistan and where the gains--the 
good stories and some of the concerns.
    What are your concerns when it comes to their special ops 
forces?
    Admiral McRaven. Ma'am, I am very confident in their 
special ops forces. In fact, I just received a detailed brief 
today from our folks in Afghanistan.
    We are very pleased, very proud, of the great work the 
Afghans have done and that, frankly, my forces have done in 
training them. I think they have a very capable commando 
element, special forces element, and we are pleased with the 
development of the Afghan Local Police.
    So I think, as long as we can continue to be in a position 
to shepherd these forces as they go forward into the future--
and it doesn't require a lot to do that, but I do think we need 
to continue to be in a position to train, advise, and assist 
for a little bit longer in order to make sure that all the 
processes that General Dunford and General Allen before him and 
others before them have put in place and make sure those are 
functioning processes, pay, maintenance, those sorts of things.
    I think, if we can get to that point, then they will be 
successful in the future. And so we certainly look forward to 
having the opportunity to continue to partner with our great 
Afghan special forces.
    Mrs. Davis. Thank you.
    Mr. Thornberry. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service.
    In your testimony, Secretary Lumpkin, you mentioned the 
advances that Colombia has achieved. And I just had the 
opportunity to go with Chairman McKeon on a CODEL 
[congressional delegation] to Colombia, Chile, Brazil, and 
Panama, and I was so impressed with what the Colombian people 
and the military has done and how they have really taken it to 
the FARC [Revolutionary Armed Forces of Colombia] and they have 
pushed them down and now they are in negotiations on that 
operation.
    But while we were there, the general in charge was very 
adamant, saying, ``We are on the 10-yard line. We are so close, 
but please don't leave us yet. The game is not over and, if you 
leave, it would be a game-changer for us. We need that.''
    So considering advances there that you mentioned in your 
testimony, how much longer do you anticipate that we will be 
engaged there with them? And what level of involvement do you 
foresee us pursuing still with them?
    Secretary Lumpkin. Thank you for the question, because, you 
know, it is interesting from my days. I mean, my first time in 
Colombia was in the late 1980s when I was in uniform at the 
time. To see where it has gone from that period to now is 
amazing.
    And they are--the comment was absolutely correct, on the 
10-yard line, and we need to make sure we sustain our presence 
and partnership with the Colombians in this effort.
    I think the key is that we looked at it from the outset, 
when the development of Plan Colombia came into place, was--is 
that it was going to be an enduring commitment on our part.
    And we--when we looked at it for that way, we knew that we 
weren't looking--we weren't playing the short game here. It was 
going to be the long game, and we focused on that.
    And the enemy gets a vote, you know, as far as how long it 
is going to go; so, I am hesitant to say that it is going to be 
X number of years or months or what have you. But I think that 
the fruits of our labor and our efforts and the resources, it 
is a tremendous return on investment long term.
    And I think it has served as a model that we could use in 
other regions and other areas and countries that--where there 
are challenges, because there is many countries that are 
challenging for us now that aren't near as bad as the situation 
that Colombia was in the late 1980s.
    Mrs. Hartzler. It did give me hope for other countries.
    And do you see it possibly being used as a model for 
Mexico? I know that NORTHCOM [U.S. Northern Command] has added 
a Special Operations Command, North there to establish that. So 
what lessons do you think that we can translate from Colombia 
to, say, Mexico?
    Secretary Lumpkin. I am kind of hesitant to say which 
country it would go to. But I think the key is that there has 
to be a comprehensive plan that is supported by the interagency 
that we make a commitment to and we know, again, it is a 
mindset of having the long game here and that there is going to 
be this enduring commitment to see it through to the end and 
having very clear metrics that we had with the Colombians and 
the Colombians clearly had skin in the game, which was key.
    And so it is about everybody sitting around a table, 
understanding, with tremendous support from the Congress, and 
making sure that this was resourced. And it wouldn't have 
happened if the Congress had not been decisively engaged at the 
beginning.
    Mrs. Hartzler. If you were to list the five things--and 
that is what I kept trying to narrow down while I was there--
what were the keys to the success here that we could translate 
to other countries?
    And some of the answers that I got was, one, first of all, 
the people have to stand up, have to be fed up with it. The 
people of the country have to say enough is enough and be 
willing to get behind leadership.
    And the second thing they said was to have strong 
leadership within their own government, willing to take them 
on, who are not corrupt and that sort of thing, but then having 
our engagement, too.
    Now, those are three things from just visiting with a few 
people. But I would like to hear your top five things, lessons 
from Colombia, why has that worked or why is it working, that 
we can translate to others.
    Secretary Lumpkin. If I could, just off the top of my head, 
I think that the top five things would be, first of all, as you 
mentioned, the people, but it is also a sense of nationalism. 
They saw themselves as a cohesive unit as a country. And I 
think that is actually key because it wasn't fragmented.
    The other one was the interagency commitment and the 
support of the U.S. Congress on our part and that we could 
enter something knowing that we were looking at a long-term 
relationship. So we weren't rushing against timelines, but, 
rather, had key milestones because it was milestone-based.
    I think that the other piece is it was resourced to the 
level that it needed to be resourced. And I believe that we--
and my final one here is because there was a commitment and we 
had the relationship and the skin in the game of the Colombian 
people.
    Mrs. Hartzler. Very good.
    Secretary Lumpkin. Thank you.
    Mrs. Hartzler. Thank you for all you do.
    Mr. Thornberry. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Admiral McRaven, you along with General Odierno and General 
Amos have embraced the concept of the human domain in a white 
paper entitled ``Strategic Landpower'' with great vigor.
    This concept is built upon the lessons of the decade of war 
from the Chairman of the Joint Chiefs of Staff along with his 
staff, and that noted--and it noted that the failure to 
understand the operational environment was the primary reason 
for the problems encountered in Iraq and Afghanistan.
    Do you agree with that assessment? And, if so, why?
    Admiral McRaven. Sir, we have had a great conversation 
between the Commandant, the Chief of Staff of the Army, and 
myself about the human domain.
    My point has always been you have to take the population 
into consideration, I think, regardless of what you are doing, 
whether it is a major conflict or whether it is an insurgency.
    And as we look at the human domain as kind of the totality 
of the cultural, the ethnic, the social fabric that makes up 
the people that live in a particular area, you have to know 
that before you can make any decisions, whether those are, you 
know, large maneuver decisions for the Army, expeditionary 
decisions for the Marine Corps or counterinsurgency decisions 
for SOF.
    So the human domain, to me, really is a fundamental area 
where we in the special operations community have to focus our 
time and our attention. We have to understand everything about 
the culture before we, you know, go off and make decisions that 
are going to affect those people in a certain area.
    Mr. Johnson. And thank you.
    Does a program like the Human Terrain System support the 
human domain concept?
    Admiral McRaven. Sir, I am only vaguely familiar with the 
Human Terrain System. We have a number of programs out there 
that look at the human terrain. I am not familiar with that 
exact system.
    Having said that, we have a number of systems that layer 
our knowledge of the human terrain. So if you look at a valley 
in Kunar Province, for example, the systems we have out there 
can tell you the ethnicity, they can tell you the cultural 
ties, they can tell you the tribal relationships.
    They can begin to layer this information one on top of the 
other. That gives us a much better appreciation for the 
dynamics in a certain region in Kunar or in Latin America or in 
Africa or wherever.
    So we use a number of systems to, again, layer that 
information so we have a better understanding of the problem 
set we are dealing with.
    Mr. Johnson. Do you think that SOCOM would be a good fit 
for the Human Terrain System?
    Admiral McRaven. Sir, if I can take that for the record and 
get back to you. Again, I am not personally familiar with that 
specific system, but I will find out and get back to you, sir.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Johnson. All right. Thank you.
    What status of operations--excuse me.
    What special operations forces core mission areas and 
activities remain of critical importance to United States 
national security? In other words, given fiscal constraints, 
what should remain off of the chopping block to ensure that we 
do not hollow out the forces?
    Secretary Lumpkin. All of the core missions that are 
codified in Title 10 remain valid and necessary; so, I don't 
recommend shedding any mission sets from the U.S. Special 
Operations Command inventory.
    Mr. Johnson. Okay. According to the May 2013 Presidential 
Policy Guidance on standards and procedures for the use of 
force in counterterrorism operations outside the United States 
and areas of active hostility, lethal action may only be taken 
in the case that an assessment has been made that capture is 
not feasible at the time of the operation.
    Which individuals or which entity is responsible for making 
the original determination that capture of any given target is 
not feasible?
    Secretary Lumpkin. We have an interagency process that 
works and discusses that particular issue and makes 
recommendations.
    Mr. Johnson. What would be the titles of those interagency 
personnel?
    Secretary Lumpkin. PPD-1, which is the Presidential Policy 
Directive Number 1, outlines the process for decisionmaking 
along this way.
    So, normally, it is a process of interagency meetings, 
deputies meetings, principals meetings, and ultimate 
recommendations.
    Mr. Johnson. So it is a collective decision?
    Secretary Lumpkin. It is a process that works through where 
we make sure everybody's concerns and equities are known. It 
makes recommendations.
    Mr. Johnson. How quickly can it be called to act?
    Secretary Lumpkin. Quite rapidly, when necessary.
    Mr. Johnson. All right. Thank you.
    Secretary Lumpkin. Thank you.
    Mr. Thornberry. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to thank the Secretary and Admiral McRaven again 
for you being here in the last 2 weeks.
    And, Admiral, I really do appreciate your candor in regards 
to how you have discussed issues, particularly as it relates to 
our conventional forces.
    Obviously, I know we are here about SOCOM, but you can't 
have one without the other, and I think sometimes people get 
somewhat confused about that.
    And just for my good friend, Mr. Johnson, I mean, if you 
are ever interested in finding out what the criteria is and how 
decisions are made, we do have that in classified setting that 
goes over those particular issues, because I had the same 
concerns that you had, Mr. Johnson. So the committee has done a 
good job in that.
    But, Admiral, today was the first time I heard that we were 
not going to use the dry combat submersible off of a submarine.
    Did I hear that correctly?
    Admiral McRaven. Sir, we have--right now our path is to 
take a look at what we have in terms of prototypes out there. 
So, as I said, we are leasing one vessel. We have two 
prototypes we are building.
    However, the intent right now is, because we think our 
major platform, the SSGN [nuclear-powered guided missile 
submarine], is scheduled for retirement in the mid-2020s, we 
are preparing to be in a position, you know, not to build a 
submarine that is tied necessarily to the SSGN or to the 
follow-on vessel.
    Now, having said that, we are absolutely, absolutely, 
looking at alternatives that would mate to a U.S. submarine. 
Right now, however, these prototypes are designed to industry 
standards first, and then we will learn from the industry 
standards to make a decision on what the final product will 
look like.
    Mr. Nugent. Obviously, to do that, I mean, you do have to 
have some type of a dry facility on the sub--on the deck of a 
sub.
    Admiral McRaven. No, sir. Not necessarily.
    Mr. Nugent. Okay.
    Admiral McRaven. So there--I mean, there are alternatives 
out there that would imply that you do not necessarily have to 
have a hangar, as we think of it----
    Mr. Nugent. Right.
    Admiral McRaven [continuing]. In order to be able to launch 
a dry submersible.
    So, again, while we are not heading down that path right 
now, we are looking at alternatives that would put us in a 
position, if necessary, to be able to have the dry combat 
submersible launched from a U.S. submarine.
    Mr. Nugent. Having the ability to do that, launch it from a 
submarine, does that increase your capabilities?
    Admiral McRaven. Sir, it does. Clearly, the clandestine 
nature of a large submarine puts us in a position to gain the 
element of surprise in certain areas.
    However, having said that, you know, without going into too 
much detail in the open session, we have good tactics and good 
procedures that can get us close enough and, as we build the 
technology, we think we will be in a position with the dry 
combat submersible to meet most of our targets that we have 
looked at.
    Mr. Nugent. Both of these submersibles that you are talking 
about, the dry and the wet, replace--what is the legacy model 
sitting out there?
    Admiral McRaven. Sir, the legacy model now on the wet side 
is the SEAL Delivery Vehicle or the Swimmer Delivery Vehicle 
[SDV], Mark 8, Mod--I'm not sure where we are now--Mod 3, Mod 
4. I was raised on the Mark 8 SDV almost 30 years ago.
    We have continued to upgrade it, however, and the 
technology on the Mark 8 today is reasonably good. But, 
frankly, the new technology that is coming online will make the 
next shallow water combat submersible really a generational 
leap beyond what the current capacity is.
    We have no dry combat submersible in the inventory right 
now. Our Advanced SEAL Delivery System is no longer active. So, 
we are down to--we have no capability within the dry side.
    Mr. Nugent. And the wet obviously limits you in regards to 
distance that you can travel based upon the operator's ability 
to operate after being exposed to extremely cold water.
    Is there anything else that is, I guess--is big Navy on 
board with the opportunity to utilize a dry combat submersible 
housed somewhere on another submarine to be named?
    Admiral McRaven. Yes, sir. So we are partnered with the 
Navy in this process. One of the reasons we are going with the 
industry standard is because, if you mate a dry submersible now 
with a Navy vessel--with a Navy submarine, then you have to 
comply with Navy standards.
    And, frankly, we think the industry standards are good 
enough for our operations right now. If we had to do it in 
compliance with the Navy standards now, we think it would cost 
much more to meet those standards and may not, may not, give us 
a better capability.
    So that is why we are exploring a number of different 
options, to find out whether or not the industry standards will 
be good enough for our future dry combat submersibles.
    Mr. Nugent. And I would think as we--you know, as we move 
along and budgets are tight, that is a good way to go, looking 
at industry standards, because every time we try to invent a 
new mousetrap--I hate to say it--one of my sons has one of 
those on his leg when he flies a Black Hawk--not too good.
    So I appreciate it. And, Admiral, we are certainly here to 
support you. Thank you.
    I yield back.
    Mr. Thornberry. Thank the gentleman.
    All sorts of implications for the larger acquisition reform 
effort in the exchange that you all just had, it seems to me.
    Mr. Carson.
    Mr. Carson. Thank you, Mr. Chairman.
    Secretary Lumpkin, looking across the globe and considering 
the threat of transnational terrorism, what are your largest 
concerns? What are we assuming? Where are we assuming risk in 
current strategies? And are we postured to counter these 
threats?
    Secretary Lumpkin. Not only am I the Acting Assistant 
Secretary for Special Operations, but I am also performing the 
duties of the Under Secretary for Policy right now. So I have 
an opportunity to take a--I have a much broader view than I 
would normally have just looking at it from the SOF 
perspective.
    The world is just a much smaller place now. So when you ask 
what are the threats and--I would say the threat is it is 
coming from everywhere, I mean, in the sense that it is 
totally--space is fungible now. People can move from place to 
place, and the world is just much smaller.
    So there aren't--while there are lines where the threat 
comes more directly, it can come from anywhere. So, for us, it 
is about having that--truly a global presence and having this 
networked approach that USSOCOM has built so well, as to making 
sure that each of the theater special operations commands and 
the SOF operators across--and there is--each geographic 
combatant commander has a TSOC, a theater special operations 
command--has got the ability to talk to each other.
    And each one of them now works in supporting the geographic 
combatant command, but for Admiral McRaven at USSOCOM, and he 
has the ability to synchronize their operations. And I think 
that is key to--that allows me to sleep at night so I am not 
worrying about this and it keeps me up.
    So I think we are postured for success, but the key is just 
making sure that that global SOF network remains resourced, 
active, and viable.
    So would you like to add something?
    Admiral McRaven. Well, I am glad you are sleeping at night.
    But I will tell you that the Secretary nailed it. When we 
talk about kind of the evolution of U.S. special operations--
and I appreciate the opportunity to roll this out--you know, we 
have had a special operations enterprise for decades. We have 
been globally dispersed for the last 27 years that USSOCOM has 
been around.
    Now that global enterprise--because of our ability to bring 
them together with communications, now we have taken those 
thousand disparate nodes and we have connected them through 
communications.
    And starting last October we established a very disciplined 
what we call battle rhythm. So video teleconferences--whereas 
the Secretary said I have four video teleconferences a week, my 
staff has them every day with the entire network now.
    And so we talk about the global SOF network. That is just 
the name. The enterprise has been there forever. Communications 
has allowed us to connect those various nodes, and now we can 
better meet the geographic combatant commander's requirements 
because we are much better synchronized.
    And so the Secretary exactly characterized it. But the 
point I wanted to raise is, for decades, we have had thousands 
of people out on the battlefield. Until recently we haven't 
been able to connect them globally through both communications 
and authorities, and now we have that ability.
    Mr. Carson. To that point, Admiral, I have been interested 
in some time in service member mental health, particularly 
providing mental health assessments throughout deployment.
    Can you give us some assessment of SOCOM's embedded 
behavioral health programs and the impact that they have had on 
resiliency, for that matter, in your units?
    Admiral McRaven. Sir, thank you for the question.
    We have our program called the Preservation of the Force 
and Families. And my predecessor, Admiral Eric Olson, did a 
lengthy task force study before I took command, spent about 10 
months looking at--talked to 7,000 soldiers, about a thousand 
spouses, 440 different units.
    That report landed on my desk when I took command, and 
clearly what the report showed was that the force was frayed. 
And I can tell you in the last, you know, almost 3 years that I 
have been in command, the force has continued to fray.
    But I am confident now that, as this body has provided us 
the resources necessary, we are getting ahead of the problems. 
So we are investing in the psychological performance, we are 
investing in the physical performance capabilities, and we are 
investing in family resiliency.
    And we think the family resiliency piece is absolutely 
critical, and we do so with the support of the services. We 
leverage every service program out there. But we greatly 
appreciate what the Congress has allowed us to do in terms of 
the Preservation of the Force and Families.
    Mr. Carson. Thank you, sir.
    Mr. Chairman, I yield back.
    Mr. Thornberry. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you both for being here.
    If it is all right, Admiral McRaven, I will start with you. 
I am always grateful to men like you that give your life to the 
cause of freedom. My 5-year-olds have a better chance to attain 
that and live in that freedom, and I appreciate that, along 
with all the folks there behind you that wear the uniform.
    You know, it has been the conviction of many of us that the 
threat and the challenge in terms of our national security 
should drive the budget rather than the reverse. And you know 
that, as much as we try to put that concept forward, that it 
usually is the victim of sometimes mathematics.
    But you have outlined some pretty significant challenges 
that you face, and you have mentioned that the force is frayed.
    And I just noticed that the initiative fund that you 
submitted in the fiscal year 2015 budget, the Opportunity, 
Growth, and Security Initiative, included--includes 14--I am 
sorry--$400 million for SOCOM readiness and infrastructure.
    And maybe give us just a quick idea of what those 
requirements are. And why were these not included in the fiscal 
year 2015 budget request?
    Admiral McRaven. Yes, sir. So the $400 million is actually 
broken down into two parts. One of them, 300-some-odd million, 
is for readiness.
    So we are going to go back and--where we had to take cuts 
in order to meet the budget numbers were in flying hours and 
steaming hours and training hours.
    So we will be able to put, I think, $350 million or so back 
into readiness to make sure that we are able to improve the 
readiness of our folks back in the continental United States.
    It has never affected the readiness of our forces deploying 
forward. We always make sure that they are absolutely ready to 
go forward wherever that might be, whether it is Afghanistan or 
anywhere else on the globe.
    But in the past we have taken some liberties with the 
readiness in the continental United States until they were 
ready to go forward.
    Having said that, there were also three programs within 
that $400 million that are part of our Preservation of Force 
and Families. There are MILCON [military construction] projects 
that we are looking at.
    And so we are grateful for this additional money coming in 
because we will be able to solve some of our readiness problems 
and, hopefully, some of our MILCON projects with the 
Preservation of the Force and Families.
    Mr. Franks. Well, thank you, sir.
    You know, as much as we try, whether it is QDR or whatever 
it might be--try to ascertain what our challenges are, it seems 
that the serendipity always outpaces our predictive capability. 
And so the only real answer is to have a comprehensive force 
that can meet whatever potential threat might come.
    And it seems to me that may be one of the greatest things 
that we are overlooking here. We think that, you know, we are 
getting a leaner, meaner machine. And I appreciate that. But we 
need to have the overall capacity, ultimately, to handle what 
comes that we can't predict.
    And so it is--with that in mind, Secretary Lumpkin, you 
have talked about a globally networked perpetual engagement for 
our special operations troops, and that is the same force that 
Admiral McRaven, in my judgment, wisely and rightly has 
indicated is fraying from the demand placed on them.
    And at the same time, in asking for diplomatic immunity 
here, this administration has depended on our special operators 
to sort of be the glue for our worldwide military operations 
during a time that we are withdrawing and, really, backing off 
of our obligations to friends and allies alike across the 
globe. And to top it off, the budget is being cut.
    So there is a breaking point to all of this. And I am just 
wondering what your own assessment of that breaking point is.
    Secretary Lumpkin. Going back to the QDR and--the QDR is a 
strategy-driven document. It happens to be budget-informed in 
order to recognize the realities of what we have as far as from 
a budget and what we have to operate with.
    That said, the global engagement piece, I mean, this is 
about fulfilling our obligations and our commitments to our 
allies and our friends to help them build the partnership 
capacity, to build the capacity to deal with these security 
challenges that become too big to fix, and to leverage their 
capabilities to do things on their own so we don't have to have 
this big military general purpose force to roll in and do that.
    But this was--when we did QDR 6 and QDR 10, this was the 
reason we built the force. And QDR 6 was to grow the special 
operations force in order to focus and allow us to do this 
building partnership capacity mission. And the QDR 10 was 
focused on giving USSOCOM those organic enablers to do those 
missions whenever possible to reduce their reliance on the 
other services when feasible.
    So that is--as we look at 2014 and we took in mind is--the 
end of combat operations in Iraq and we are looking at a 
reduction, we don't know what the--whether we are going to end 
up with a bilateral security agreement in Afghanistan at this 
juncture.
    But at some point our footprint will be reduced in 
Afghanistan, and those forces--there is a demand signal by the 
geographic combatant commanders. They want more SOF in their 
theater.
    And with the post-2014 Afghanistan and, as we draw down the 
forces, it will give us the ability to meet those unmet demands 
within the GCC. So they can do that capacity building with our 
partners and our allies.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Thornberry. Thank you.
    Talk about MILCON reminds me that I believe we have an 
outstanding request for special operations military 
construction that was requested to be submitted with the 
budget. I don't think we have quite gotten it yet.
    So, Secretary Lumpkin, I might just put that on your radar 
screen, if you don't mind, when you go back to the building, to 
check and see where that is.
    You were talking earlier that, in addition to being the 
Assistant Secretary for Special Operations/Low-Intensity 
Conflict, you are the Acting Under Secretary for Policy.
    You are also in charge of the task force looking for one of 
our folks who has been taken captive. Correct?
    Secretary Lumpkin. I am the Department lead for that 
endeavor. Yes.
    Mr. Thornberry. Looks to me like you have got a full plate.
    Secretary Lumpkin. I keep busy. Yes, sir.
    Mr. Thornberry. Well, have they nominated somebody for 
Policy yet?
    Secretary Lumpkin. Yes, sir. Been nominated, had the 
hearing. We are waiting for the confirmation process to work 
its way through.
    Mr. Thornberry. Okay. When you testified in front of the 
Senate, I know you were asked about the Authorization for the 
Use of Military Force [AUMF]. And, frankly, I have gotten a 
little confused over the years what the administration policy 
is towards that. Sometimes we hear that it is don't mess with 
it. Sometimes it is change it.
    Can you help me understand the administration's policy? And 
from your experience, isn't it getting harder and harder to do 
the things that we ask our special operators to do around the 
world, relying back on the Authorization for the Use of 
Military Force that was passed in September 2001?
    Secretary Lumpkin. Thank you for the question, sir. I truly 
do appreciate it.
    In May of last year, the President in his May speech at 
National Defense University mentioned about revising and 
eventually repealing the AUMF as a goal.
    I truly believe that the AUMF has served us well. It 
continues to serve us well. It gives us the ability to keep 
this Nation safe and do the missions that we need to do.
    That said, my comment to the Senate was that we are at an 
inflection point. We are at a point that is--it is always good 
to relook at authorities because they evolve. The threat 
evolves.
    And so I would encourage a look at the AUMF, make sure it 
is doing everything we need it to do. And if it is not, if it 
needs to be taken in or expanded or whatever, it is a chance to 
do that if we are going to take a look at it. And that is what 
I support.
    Mr. Thornberry. Okay. Well, I agree, actually.
    And what I also agree with is that we should not ask our 
men and women to go and do something anywhere in the world that 
they are not fully backed up with law to do.
    And I worry about this strain as we get further and further 
away from 9/11, and the exact wording of the AUMF makes it 
harder and harder to draw those connections.
    So. Speaking of authorities, Admiral, let me just touch 
back. We talked at the beginning about working with others. One 
of the things that has been requested is an extension of the 
1208 authority as well as increasing the dollar limit on that.
    In this forum, can you describe for us the role that 1208 
plays, how important you think it is in the menu of options 
that special operators have to work with others, with 1206 and 
global security.
    Admiral McRaven. Yes, sir. And then I would like to defer 
to Secretary Lumpkin because he has been very supportive of 
increasing the amount of money for our 1208.
    Sir, I would tell you 1208 is probably the single most 
important authority we have in our fight against terrorism. It 
allows us to build forces, to train them, to equip them, and to 
do so with, I think, the right amount of oversight. And right 
now we are finding that this is a--again, about building 
partner capacity. This is a growth industry.
    So whereas a couple of years ago we had a certain level of 
authority, we found that our expenditure rates didn't really 
match the authority. Now already we are closing in on the $50 
million authority, and I think the demand signal--I know the 
demand signal out there is even larger than that. So Secretary 
Lumpkin has put forth a proposal to increase the authority, and 
I am in strong favor of that.
    However, one of the problems we run into is, as we look at 
how we build partner capacity, we do have to have a patchwork 
of various authorities. So we do use 1206 when appropriate; 
1207, the Global Security Contingency Fund; 1208.
    And we make it work, but there is an awkwardness to it and 
sometimes limitations to it. Some of the authorities allow us 
to work with the Minister of Defense, but not the Minister of 
Interior [MOI], where, in some cases, their counterterrorism 
forces actually are in the MOI, or some allows us to build 
minor military construction, you know, a small shoot house or a 
small barracks; others don't.
    So what we try to do is find the right authority for the 
right situation, but that is not always easy. 1208 is the--
gives us the greatest latitude, but it is strictly focused on 
counterterrorism, whereas 1206 and 1207 give us a little bit 
more latitude in other areas.
    Secretary Lumpkin. And, if I may, I absolutely agree with 
the admiral in the sense that 1208 is a tremendous tool for us. 
And we are rapidly approaching our maximum authorization of the 
$50 million, and we are not even halfway through the year yet.
    We are tightening up our obligation, looking at what we 
can--find other mechanisms to fund so we don't find ourselves 
up against a wall.
    But the other concern I have is that, in the event it is 
not renewed or we end up with a continuing resolution where it 
doesn't allow me to continue operations, stopping that 
particular mission set has significant impact operationally.
    So I would encourage and support getting an extended 
authorization sooner rather than later.
    Mr. Thornberry. Well, I am struck by the conversation you 
all were having with Mrs. Hartzler. This is an operational 
authority, not some of the other authorities. And, yet, 
operationally it still takes a while to help develop some of 
these capacities. And so we don't want to be shortsighted about 
it.
    Mr. Langevin, do you have other questions?
    Mr. Langevin. I probably will hold for the classified 
session.
    Mr. Thornberry. Okay. Does anybody else have open session 
questions?
    Mr. Hunter. Sure. Yes, Mr. Chairman.
    Mr. Thornberry. Mr. Hunter.
    Mr. Hunter. Really quick.
    JIEDDO. I am just wondering what do you see with JIEDDO 
going forward? You know, what do you do with JIEDDO right now?
    They have been supporting SOCOM for a long time. They are 
also supporting, you know, big Army, Marines, everybody else, 
too.
    But from your side of things, what do you want to see 
happening with them going forward? What parts of them should be 
kept and what parts of JIEDDO are just bureaucratic and won't 
be needed anymore once we get out of Afghanistan?
    Secretary Lumpkin. From a larger policy perspective, 
JIEDDO, as you are keenly aware, has been crucial and 
instrumental and been tremendously supportive to our operations 
and initiatives forward.
    So, for me, from a policy perspective, would really like to 
ensure we codify it in the Department long term and it doesn't 
go by the wayside as we move past--beyond our current 
operations.
    Mr. Hunter. Let me ask you this, though. When you codify 
it, you want to make sure it is really, really good. So you 
want to maybe cut out the parts that you don't think are being 
productive right now or not as productive or change those parts 
and keep the parts that are really good, if you codify it.
    So what parts would those be? What parts would you keep? 
What parts would you change? Or you can get back to me if you 
don't have that on you right now.
    Secretary Lumpkin. I will defer to see if Admiral McRaven 
has it, but I can get back to you on that.
    Admiral McRaven. Sir, we have a JIEDDO rep, as you know, in 
almost every location where we have our SOF forces. And, as the 
Secretary said, JIEDDO has been absolutely fabulous over the 
years.
    For us, you know, what JIEDDO has learned to do is to 
understand networks. So as we look at the terrorist threat, 
frankly, where JIEDDO started out focusing on IEDs [improvised 
explosive devices]--and, of course, understanding IEDs meant 
you had to understand the IED network--now the folks at JIEDDO, 
because they understand the foundation of network development, 
you can take that talent and that capability and overlay it on 
the threat networks elsewhere.
    So I am a very big believer that what JIEDDO has learned, 
the IED fights in Iraq and Afghanistan, is fungible as we move 
forward and have to fight networks globally.
    So I wouldn't portend to tell you where you could cut them 
or not cut them. I can tell you that they have been a 
tremendous resource to SOCOM and we greatly appreciate what 
they have done and, frankly, how they have, to some degree, 
reshaped themselves and looked at the broader network problem 
set.
    Mr. Hunter. Thank you.
    That is all I have got, Mr. Chairman.
    Mr. Thornberry. All right. Thank you both.
    With that, the open portion of this hearing will be 
adjourned, and we will move swiftly down one floor and across 
the hall.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned, 
to be reconvened in classified session.]
?


=======================================================================




                            A P P E N D I X

                             March 13, 2014

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 13, 2014

=======================================================================


     [GRAPHIC] [TIFF OMITTED] 

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 13, 2014

=======================================================================


        RESPONSES TO QUESTIONS SUBMITTED BY MR. LANGEVIN

    Admiral McRaven. USSOCOM is currently pursuing directed energy 
systems as a non-kinetic, stand-off anti-materiel solution. We have a 
requirement to surgically disable or disrupt a variety of fixed 
facility infrastructure and systems, with required capabilities ranging 
from breaching and access to disablement of critical equipment. The Man 
Portable High Energy Laser is one of several technologies under 
consideration for this critical mission.
    The MPHEL system was developed in close cooperation with the Joint 
Improvised Explosive Device Defeat Organization. Boeing Directed Energy 
Systems Albuquerque, NM has served as the lead contractor from 
September 2012 to present. The current prototype MPHEL system has an 
output power of 2 kilowatts and weighs approximately 750 pounds in a 
configuration the size of four large Pelican cases. The emphasis of 
further development will be on reducing the form factor, reducing 
weight, and increasing effective range.
    Initial testing of the prototype MPHEL system was conducted at 
Kirtland AFB, NM from January to February 2014, and produced positive 
results. The prototype demonstrated an ability to disable electronics 
devices, burn through various metals, and disable electrical systems. 
The prototype system will now be shipped to USSOCOM in May 2014 for 
user evaluation and target characterization, establishing the baseline 
for further development. At this time there are no plans to procure or 
field the MPHEL in its current form factor.
    Recognizing the importance of safety, and the unique legal 
implications of directed energy systems, USSOCOM engaged early with the 
US Army Institute of Public Health. A preliminary evaluation of the 
system was conducted in December 2013 to determine potential health 
hazards. Initial results placed the MPHEL in a mishap risk category of 
medium, and identified several proposed design modifications for future 
versions. The final report is pending.   [See page 7.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. JOHNSON
    Admiral McRaven. The human domain fills a critical conceptual gap 
in visualizing the operating environment. None of the existing domains 
(air, land, maritime, space, and cyber) sufficiently address the 
centrality of people to contemporary and future strategy, operations 
and activities. The human domain complements the other domains and more 
fully describes the contemporary and future operating environments. It 
is not new in warfare, and a host of related terms have been developed 
to describe it. Most of these terms insufficiently define the scope and 
scale of the centrality of humans within the operating environment.
    The Human Terrain System (HTS) is a U.S. Army program implemented 
by the Army's Training and Doctrine Command to develop, train, and 
integrate a social science based research and analysis capability that 
enables sociocultural understanding across the operational environment. 
In this regard, the HTS supports operations in the human domain by 
enhancing understanding of the cognitive, information, social, 
cultural, and physical elements that affect the domain. The HTS 
supports joint and coalition forces by providing social science support 
to military commanders in the form of Human Terrain Teams (HTTs) 
composed of individuals with social science academic backgrounds. HTTs 
deploy with tactical units to assist in bringing knowledge of the local 
population into a coherent framework. Developing this sociocultural 
understanding provides a method for considering the effects of military 
operations among local populations. Operations in the human domain 
require this identification and ability to influence relevant 
populations in order to enhance stability, prevent conflict, and when 
necessary, fight and defeat adversaries.
    The HTS continues to support commanders in Afghanistan with HTTs 
that provide sociocultural information and reporting to the North 
Atlantic Treaty Organization (NATO), International Security Assistance 
Force (ISAF), and to U.S. commanders and staffs in order to build 
understanding, peace and security. In August 2013, fourteen HTTs were 
deployed to Afghanistan.   [See page 15.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. GIBSON
    Secretary Lumpkin. I believe our military forces and Geographic 
Combatant Commanders have the authorities and programs necessary to 
mitigate current transnational terrorist threats. Our forces leverage, 
integrate, and implement a wide variety of security assistance and 
military cooperation programs. The current authorities available, such 
as Sections 1203, 1206, 1207, and 1208, provide additional and focused 
tools that the Department of Defense and our Geographic Combatant 
Commanders use to build directly or to enhance the capabilities and 
capacities of our partner to counter the threats of terrorism or 
indirectly support counterterrorism operations. I do not recommend any 
immediate changes to existing counterterrorism authorities or program 
resourcing. However, the Department of Defense is taking a close look 
at our statutory authorities for assistance to foreign security forces 
to assess the extent to which they meet evolving requirements. We 
intend to engage with Congress to discuss our findings following this 
internal review.   [See page 10.]
    Admiral McRaven. U.S. Special Operations Command (USSOCOM) is 
currently conducting information sharing initiatives under existing 
authorities. CDRUSSOCOM derives authority to share information and/or 
intelligence with foreign partners from National Disclosure Policy-1 
and any applicable exceptions in accordance with CJCSI 5221.01D and DOD 
Directive 5230.11. USSOCOM is coordinating disclosure and/or release of 
information and/or with partners through the appropriate information 
sharing/foreign disclosure offices.   [See page 10.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 13, 2014

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. Do our forces and geographic combatant commanders 
have the authorities they need to mitigate current and future 
transnational terrorist threats? What changes would you recommend, 
including potential changes to the AUMF?
    Secretary Lumpkin. With the strong support of Congress, the 
Department has gained several new authorities since 2001 that have been 
essential to conducting counterterrorism operations and building 
partner nation capabilities. Key authorities for partner capability 
building are found in uncodified, temporary provisions of law, and 
looking ahead we will be challenged to sustain our current capabilities 
should these authorities lapse. We would like to work with Congress to 
determine what is needed beyond the ``current fight.'' With respect to 
the AUMF, the President has said it needs to be revised and ultimately 
repealed. We look forward to working with Congress on this as well.
    Mr. Thornberry. A great deal has been written and said about the 
relationship between special operations forces and the CIA. What is 
your opinion of how the CIA and SOF should share responsibilities that 
interlock and overlap, given respective strengths and weaknesses? What 
coordination role does your office (Special Operations/Low-Intensity 
Conflict) play in helping to coordinate and de-conflict CIA-DOD 
operations and activities? What are some areas of improvement?
    Secretary Lumpkin. Close coordination and deconfliction between DOD 
and CIA is essential to protecting our national security interests, as 
is also the case with other departments and agencies as part of a 
whole-of-government approach. In those areas in which special 
operations forces and CIA have related responsibilities, we coordinate 
our efforts through a robust exchange of liaison officers and detailees 
who collaborate on a daily basis. At the headquarters level, the 
National Security Council Staff hosts regular meetings focused on 
counterterrorism coordination and deconfliction. As the ASD SO/LIC, I 
represent the Department and provide advice to the Secretary of Defense 
on these matters. In this capacity, I work closely with the Under 
Secretary of Defense for Intelligence and the DOD General Counsel to 
ensure DOD operations are fully aligned with relevant intelligence 
policies and comply with all applicable laws. In the realm of DOD-CIA 
collaboration on counterterrorism operations, we are currently working 
on initiatives to strengthen and improve the flow of information, 
technology, and practical expertise to cross-level capabilities between 
the two organizations.
    Mr. Thornberry. What changes can you recommend to the present set 
of Security Force Assistance authorities such as 1206 and Global 
Security Contingency Fund? Are these the right types of authorities to 
satisfy future geographic combatant commander requirements to develop 
partner nation capabilities?
    Secretary Lumpkin. Many of the existing Security Force Assistance 
(SFA) authorities, including Section 1206 and the Global Security 
Contingency Fund (GSCF), are still relatively new. Since their 
creation, in Fiscal Year 2006 and Fiscal Year 2012, respectively, the 
Department of Defense has invested a significant amount of time and 
effort in developing the organizational structures and processes 
required for their effective use. We believe that Section 1206 has been 
a success and that the GSCF is now poised to succeed.
    However, the global strategic environment has evolved since the 
creation of these new authorities, and we anticipate that it will 
continue to evolve over the next several years. The threat of terrorism 
increasingly flows from Al Qaeda's dispersed affiliates and offshoots 
rather than from its core, presenting a diffuse set of threats against 
which to apply these authorities. Although we are drawing down in 
Afghanistan and uncertain about our level of presence there beyond 
2014, many of the partners we trained and equipped to assist with 
stability operations there are now poised to assist with similar 
operations in other regions of the world. Recent events in Ukraine 
underscore the importance of continued engagement with our Eastern 
European and Baltic partners. Given this shifting dynamic, the 
Department of Defense is taking a close look at our SFA authorities to 
assess the extent to which they meet these diverse and evolving 
requirements. We intend to engage with Congress to discuss our findings 
following this internal review.
    Mr. Thornberry. A recent report on special operations forces by the 
Council on Foreign Relations suggested that, ``the Office of the 
Assistant Secretary for Special Operations/Low-Intensity Conflict has 
difficulty fully providing civilian oversight of U.S. Special 
Operations Command's policy and resources as directed by law.'' Do you 
agree with this assessment? Can you outline for the committee how that 
office conducts oversight of policy and resources of SOCOM?
    Secretary Lumpkin. My office provides civilian oversight of all 
special operations matters as required by 10 USC Sec. 138. As such, I 
provide oversight of special operations policy and resources matters 
and provide advice to implement Secretary of Defense and Under 
Secretary of Defense for Policy security priorities to meet the 
challenges posed by the global security environment. The relationship 
with the Commander, USSOCOM is collaborative and cooperative, with a 
common goal to develop the best possible special operations forces and 
to employ them effectively. Ultimately, I advise the Secretary of 
Defense and provide recommendations regarding special operations that 
are in the best interest of the Department.
    During each of the last three QDRs, the Department has reviewed, 
evaluated, and determined the appropriate resourcing of USSOCOM to 
improve the U.S. capability to combat terrorism on a global basis. With 
each of these reviews, SOLIC has also evolved and adapted as an 
organization to meet statutory and Department oversight requirements. 
SOLIC's oversight of special operations has further developed in 
partnership with the other parts of the Office of the Secretary of 
Defense staff, interagency counterparts, and Congress, and through 
coordination with the USSOCOM staff. I work closely with the Under 
Secretaries of Defense for Intelligence; Acquisition, Technology and 
Logistics; and Personnel and Readiness and leverage their subject 
matter expertise to provide oversight. I also work closely with the 
Director of CAPE, the DOD Comptroller, and the Assistant Secretary of 
Defense for Legislative Affairs to develop the optimum force structure, 
resources, and authorities to meet future special operations 
requirements.
    I will continue work closely with all relevant officials to ensure 
our nation sustains a ready, capable Special Operations force, prepared 
to meet the fiscal, operational, and global challenges we face today 
and into the future.
    Mr. Thornberry. In addition to more than 4,000 positions authorized 
for SOCOM and its components, the service component commands of the 
Army, Navy, Air Force, and Marine Corps, taken together, have more than 
2,000 authorized positions to support SOCOM and its operations. Have 
you looked for efficiencies between and among SOCOM and its subordinate 
commands? If not, why not? If so, what did you find?
    Admiral McRaven. The numbers stated in the question are inaccurate.
    Of the 4093 billets, 2168 billets are in commands and organizations 
that do not perform Functional Combatant Command (U.S. Special 
Operations Command), or Service Component Command activities and 
functions. The following organizations do not meet the definition of a 
Functional Combatant Command or Service Component Command;
    <bullet>  Joint Special Operations Command, a Sub-Unified Command
    <bullet>  Special Operations Command-North, a Theater Special 
Operations Command
    <bullet>  Special Operations Command-Joint Concepts, a Theater 
Special Operations Command disestablished in 2013 and manpower zeroed 
out in 2014
    <bullet>  Special Operations Joint Task Force is an operational 
unit with rotational assignment to the U.S. Central Command theater of 
operations
    <bullet>  Regional Special Operations Coordination Center (RSCC) is 
not a direct reporting unit to USSOCOM, and none had been established 
in FY13. The manpower was identified on the JTD as a precursor to 
possible resourcing in FY14. RSCC is in Proof-of-Concept development, 
with activities authorized by Congress on a limited basis
    <bullet>  Special Operations Research and Development Center is a 
Service-like function that no other Combatant Command Headquarter 
possesses. DODD 5100.73 excludes all systems/weapons development and 
procurement activities that are not associated with HQ Management 
functions
    <bullet>  Joint Special Operations University (JSOU) is an 
educational activity/entity that no other Combatant Command Headquarter 
possesses. DODD 5100.73 excludes NDU, Naval Postgraduate School, 
Service Academies, the Defense Industrial University, etc. JSOU falls 
into this category and is not a function of a Functional Combatant 
Command, or Service Component Command
    The 2110 billets identified for the Service Component Commands are 
correct.
    Mr. Thornberry. Have you looked for efficiencies between and among 
SOCOM and its subordinate commands? If not, why not? If so, what did 
you find?
    Admiral McRaven. USSOCOM constantly evaluates its manpower 
requirements. Since 2007, USSOCOM has undergone numerous reviews, 
studies, and evaluations from OSD, JS, and internal reviews to find 
efficiencies, comply with DOD direction to eliminate contractors, 
replace military with civilians, cap the number of both civilians and 
military, and to streamline activities wherever possible. In addition 
to complying with all OSD and JS guidance, USSOCOM purposely evaluates 
our resources, both manpower and dollars to ensure we maintain a 
balanced, effective, efficient, and affordable portfolio of 
capabilities to meet the National Security and Defense Security 
Strategies while complying with the Laws, Regulations, Policies, and 
Procedures set forth by the President, Congress, Secretary of Defense, 
the Chairman, Joint Chiefs of Staff, and the Services. Total 
requirements for manpower always far exceed available end-strength, are 
dynamic, evolving, and prioritized constantly to mitigate risk across 
the breadth of the Special Operations enterprise. Our budget 
submissions to Congress outline the most recent and up-to-date 
alignment of forces to meet our warfighting requirements within the 
resources allotted by OSD.
    Mr. Thornberry. The Opportunity, Growth and Security Initiative 
fund submitted with the FY15 budget includes $400 million for SOCOM 
readiness and infrastructure unfunded requirements. Please outline 
these requirements for the committee; and discuss why and how these 
requirements were NOT included in the FY15 base budget request?
    Admiral McRaven. USSOCOM's $400 million portion of the Department's 
$26 billion Opportunity, Growth and Security Initiative (OGSI) is 
outlined in the attachment. USSOCOM's request addresses the most 
pressing readiness and infrastructure requirements that could not be 
resourced within USSOCOM's FY15 President's Budget (PB). The FY15 PB 
resourced the highest priority programs required by special operations 
forces to conduct missions in support of Geographic Combatant 
Commanders' requirements.
    Mr. Thornberry. Can you outline some of the more difficult advanced 
technology requirements that SOF needs in order to maintain an edge on 
the battlefield?
    a. As we withdraw from major combat in Afghanistan, will the need 
for non-lethal weapons and directed energy weapons increase?
    b. How are you managing to stay ahead in research and development 
while your budget in this area has steadily declined over the past 
several fiscal years?
    Admiral McRaven. a. USSOCOM expects to remain engaged in global 
counterterrorism operations for the foreseeable future. United States 
Special Operations Forces (USSOF) will continue to operate in close 
proximity to their Afghan partners, as aggregate US Forces retrograde 
from Afghanistan. Today, USSOF forces are gradually migrating from 
rural areas to fixed bases in larger population centers. This will 
reduce associated operational risk, and allow for sustained advisory 
and engagement support at the appropriate operational levels necessary 
to enable the Afghan National Security Forces (ANSF) to unilaterally 
maintain operational momentum and evolve as an institution.
    Village Stability Operations will be completed December 2014 and 
on-going USSOF Security Force Assistance efforts, which have always 
been the focus of USSOF, are now reorienting away from the tactical to 
the operational level. This has led to emphasis being placed on the 
development of the Special Mission Wing, ANA Special Operations Command 
Headquarters and its brigades, the various Afghan Special Police 
headquarter elements and a variety of efforts designed to develop 
intelligence and their sustainment capacities. The limited tactical 
level advisory support continues and will predominantly occur from 
permanent bases, where the Afghan Security forces have established 
training centers. Given the limited nature of USSOF's future tactical 
operational role in Afghanistan, we do not see demand increasing for 
advanced technological requirements. However, as USSOF expands globally 
demands for a multitude of advanced technologies will grow enabling 
USSOCOM to remain at the tip of the spear and conduct our core 
missions, as directed by the President and Secretary of Defense SOF 
needs enhanced lethal capabilities against multiple types of moving 
targets that will provide greater accuracy and desired target effects 
while minimizing collateral damage to near-zero probability. SOF has 
long-standing requirements for a variety of less-than-lethal (LTL), 
scalable effects weapons (SEW), to include those for which directed 
energy may provide the optimal solutions. SOF's interests in LTL SEW 
capabilities include dissuading and disabling personnel, and rendering 
equipment and/or facilities functionally ineffective. Key technological 
challenges include smaller, light-weight and affordable power 
generation and multi-mode seekers for long-range precision weapons; LTL 
SEW technologies that render personnel or equipment ineffective to 
ensure mission success with greater force protection and less 
likelihood of civilian casualties; state-of-the-art light-weight 
personnel protective armor and multi-spectral sensory enhancement 
technologies; and broad spectrum, multi-sensory signature reduction. 
The critical aspect for all of these technologies is their 
compatibility with SOF tactics, techniques and procedures using SOF- or 
GPF-provided soldier, ground, airborne, and/or maritime systems.
    b. USSOCOM's S&T Directorate leverages other government agencies 
and labs, whenever able, to maximize the efficiency and effect of our 
limited RDT&E budget. USSOCOM's overarching FY15-19 S&T Integrated 
Priority List (STIPL) which includes Comprehensive Signature 
Management, Anti-Access/Area Denial, SOF Small Unit Dominance, Human 
Performance, and Battlespace Awareness, requires external support to 
address these high priority S&T needs.
    USSOCOM's S&T Directorate is coordinating Technology Discovery 
Sessions chaired by the SOCOM Deputy Commander and Acquisition 
Executive. In these sessions, SOCOM invites forward thinking senior 
industry and academic leaders to discuss such topics as technology 
investment strategies, how to avoid technological surprise, partnering 
opportunities, and how USSOCOM can best prepare for the future. SOCOM 
senior leadership establishes specific focused topics and invitees for 
two to three planned follow-on events per year.
    The following provide a few recent and relevant examples of 
collaboration with Service labs and centers. SOCOM S&T, in 
collaboration with the Systems Engineering Research Center (SERC), a 
University-Affiliated Research Center of the US Department of Defense, 
sponsored a joint SERC Capstone project with the University of Alabama 
and Stevens Institute of Technology resulting in the development of a 
SOF non-lethal capability to stop boats up to 50 meters in length. In 
collaboration with the Air Force Research Laboratory, we are developing 
wind sensing technologies which will dramatically increase AC-130 
Gunship first-round accuracy. Similarly, our relationship with the U.S. 
Army's Medical Research and Materiel Command (MRMC) has enabled 
efficient development of critical lifesaving technologies for special 
operations forces. Uncontrolled external hemorrhage remains the leading 
cause of death on the battlefield. Despite recent advances in 
hemorrhage control technologies, controlling the bleeding in large 
wounds (``sharkbite'') remains difficult and a SOCOM Commander top 
priority. A ``Sharkbite'' project developed a novel wound stasis 
dressing to treat SOF non-compressible hemorrhagic injuries. The 
``SharkBite Trauma Kit'' includes three revolutionary tools that are 
now pending FDA approval before transition to USSOCOM's PEO-SOF 
Warrior's Tactical Combat Casualty Care Program of Record and SOF 
medics. The collaboration may lead to a capability for the conventional 
force as well.
    Mr. Thornberry. How are the roles of women in SOF changing? Can you 
outline for the committee on SOCOM plans for assigning women in 
previously closed positions?
    Admiral McRaven. There are many women currently serving in SOF 
positions. Based on the January 2013 direction from Secretary of 
Defense, USSOCOM is reviewing all SOF positions closed to women with 
the intent of opening them all by January 2016. USSOCOM may only keep 
closed those positions that are specifically approved by both the 
Chairman of the Joint Chiefs of Staff and the Secretary of Defense. The 
decision to open or keep specific positions closed to women will be 
guided by the Chairman of the Joint Chiefs of Staff's guidance to 
ensure ``the success of our Nation's warfighting forces . . . ,'' that 
``all Service men and women are set up for success with viable career 
paths . . . ,'' and ``to retain the trust of the American people.''
    Mr. Thornberry. Can you update the committee on SOCOM's 
intelligence functions, requirements, and initiatives?
    a. What specific intelligence, surveillance, and reconnaissance 
(ISR) requirements do you have? b. What manned and unmanned ISR systems 
are you investing in, and why? c. How do you coordinate with the 
Services in these areas? d. What role does your J2 (Intelligence) 
Director play in identifying and filling those unique requirements? e. 
How is SOCOM working to resource Theater Special Operations Command 
intelligence requirements? f. What role is SOCOM playing in the Defense 
Intelligence Agency's new Defense Clandestine Service?
    Admiral McRaven. (a) USSOCOM is working closely with SOF Theater 
and Component commands to refine air, ground, and maritime ISR 
requirements to support the Geographical Combatant Commanders (GCC). 
Future draw downs in Afghanistan do not change SOCOM's enduring global 
AISR requirement, but rather reflect a need to shift ISR capabilities 
to other areas of responsibility in support of GCC operations outside 
the Afghanistan-Pakistan region. Reference Memorandum for Secretary of 
Defense and Chairman of the Joint Chiefs of Staff-Airborne 
Intelligence, Surveillance, and Reconnaissance Support to Special 
Operations Forces dated 9 January 2012; or Joint Emergent Operational 
Need (JEON) for Airborne Intelligence, Surveillance, and Reconnaissance 
in Support of Special Operations Forces dated 8 June 2012.
    (b) USSOCOM currently operates the U-28 as its primary manned ISR 
platform along with JAVAMAN aircraft in a GOCO capacity. USSOCOM plans 
to transition to the MC-12 that is being divested by the USAF. This 
transition will incur an initial investment to upgrade capabilities to 
meet the U-28 Mission. However, the MC-12 provides dual-engine 
capability, longer flight duration, and additional capacity for ISR 
equipment.
    USSOCOM's FY15-16 budget includes unmanned MQ-9 baseline investment 
funding to enable continued rapid development and integration of 
permissive ISR capabilities critical to global SOF operations on up to 
50 MQ-9s and associated ground equipment to meet current and future 
permissive ISR requirements. This enables USSOCOM to transition from 
MQ-1/9 unmanned aircraft to a full MQ-9ER fleet by leveraging the 
replacement of USAF provided MQ-1B with USAF provided Extended Range 
MQ-9 Reapers.
    (c) USSOCOM is partnering with the Services to mitigate shortfalls 
like initiatives to promote best practices in full-motion-video (FMV) 
exploitation and develop relationships where SOF and Services can share 
the burden of exploitation. USSOCOM is working with the Services to 
ensure budget reductions of Service-provided assets, like permissive 
intelligence, surveillance, and reconnaissance aircraft, are protected 
to so that SOF can contend with future global threats and challenges.
    (d) USSOCOM J2 Intelligence Director conducts weekly ISR Councils 
to discuss/evaluate SOF ISR requirements and issues. USSOCOM J2 
participates in both deliberate and urgent requirements, planning 
processes through Service Warfighter Talks, and formal requirement 
document coordination through either their Joint Capability Integration 
Development System (JCIDS) or the similar SOF Capability Integration 
Development System (SOFCIDS). USSOCOM coordinates closely with USD(I), 
ISR Task Force, Services, Components, and TSOCs to refine requirements, 
synchronize efforts, and advocate for ISR capability.
    (e) USSOCOM is working to capture Theater Special Operations 
Command intelligence requirements through weekly ISR Councils and TSOC 
Deep Dives as well as addressing requirements identified by TSOC 
Commanders during monthly Commander Decision Roundtables (CDRT). 
Requirements are validated through the JCIDS or SOFCIDS process and 
then resourced through the USSOCOM Strategic Planning Process.
    (f) USSOCOM fully supports the Defense Intelligence Agency's new 
Defense Clandestine Service. Over the past year DCS has established a 
presence in USSOCOM Headquarters to ensure we align our efforts and 
requirements. Due to classification, discussions on USSOCOM specific 
roles and interaction with the Defense Clandestine Service will need to 
be addressed in a closed session.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CARSON
    Mr. Carson. Do you anticipate that this pace of deployment of SOCOM 
forces will change as we withdraw from Afghanistan? And given budget 
cuts, the unique training needs of special operators, and the 
necessarily small force size, how can SOCOM continue meeting its 
deployment requirements?
    Secretary Lumpkin. I anticipate as SOF requirements go down in 
Afghanistan, we will redistribute forces to other regions in a manner 
that is aligned to current, emerging threats and to achieve a more 
balanced SOF posture across the Geographic Combatant Commands. The 
Department considered this redistribution of SOF during the FY 2015 
program review, and we believe we have properly resourced USSOCOM for 
training, readiness, and sustainment requirements in the years ahead.
    Mr. Carson. Once we have withdrawn from Afghanistan, which areas or 
countries do you believe will be the primary recipients of SOCOM 
deployments? And can you give us an idea of the types of missions you 
expect they will see, either alone or with partner nations?
    Secretary Lumpkin. Our goal is to realign and redistribute SOF 
across the Geographic Combatant Commands in a manner that is aligned to 
current and emerging threats. Consistent with the approach of working 
bilaterally when possible, SOF will retain the capability to advise and 
assist partners to take action to counter enemy threats and disrupt 
their planning, training, and recruitment. We will be postured to 
conduct direct action to protect U.S. persons from attack when 
necessary. At the same time, we will expand and enrich our engagement 
with security partners to build capacity, improve capabilities, and 
foster greater cooperation. This includes expanding bilateral 
exercises, joint exchanges, and other training events with 
international SOF partners.
    Mr. Carson. Do you anticipate that this pace of deployment of SOCOM 
forces will change as we withdraw from Afghanistan? And given budget 
cuts, the unique training needs of special operators, and the 
necessarily small force size, how can SOCOM continue meeting its 
deployment requirements?
    Admiral McRaven. Recently, we have been deploying between 8,000 to 
10,000 Special Operations Forces (SOF) personnel throughout the globe, 
on a daily basis. I anticipate our pace of deployment to drop below our 
current deployed numbers in the near term if we draw down in 
Afghanistan, and will increase to comparable numbers of 8-10K deployed 
SOF as we mature our SOF Campaign Plan. This plan will focus our 
efforts on building partner nation capacity through persistent regional 
SOF presence, while posturing a SOF capability that can conduct direct 
actions against emerging terrorist threats--both requiring a trained 
and ready deployed force. Through prioritization of resources, we can 
continue to meet our deployment requirements with our current and 
proposed future budgets.
    Mr. Carson. Once we have withdrawn from Afghanistan, which areas or 
countries do you believe will be the primary recipients of SOCOM 
deployments? And can you give us an idea of the types of missions you 
expect they will see, either alone or with partner nations?
    Admiral McRaven. First, I believe that SOF will continue to be 
deployed to Afghanistan in some operational capacity. As we have drawn 
down from Iraq in December 2011 and now, Afghanistan, SOF personnel 
capacity has become available to deploy to other geographic regions. 
Since that time, the African continent has experienced the largest 
increase in deployed SOF personnel, and I believe will continue to be 
one of the primary recipients of SOF deployments in the future. As our 
SOF Campaign Plan focuses on building partner nation capacity, we will 
continue to execute those missions of Foreign Internal Defense, Civil 
Affairs, Information Operations, Stability Operations, and Humanitarian 
Assistance, while also executing direct actions against emerging 
terrorist threats. These direct actions will range from advise and 
assist, precision reconnaissance, and unconventional warfare, with a 
focus on Counter-terrorism. We will strive to partner with foreign 
nations at every opportunity to conduct direct and indirect operations, 
but we will always be prepared to execute alone. At the present time, 
the preponderance of our SOF operations on the African continent is 
being conducted with the support of other partner nations. Finally, I 
believe that the demand for SOF by the Geographic Combatant Commanders 
will outweigh our SOF capacity for future SOF Campaign Plan 
requirements.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GIBSON
    Mr. Gibson. What are some recommendations for improving 
intelligence collaboration across the whole-of-government?
    Secretary Lumpkin. DOD works with its partners in the Intelligence 
Community to ensure relevant intelligence information is shared 
appropriately. Recent initiatives include DOD funded inter-agency 
collaboration in the areas of counterterrorism, countering 
transnational organized crime (CTOC), and maritime domain awareness. 
DOD also provides domestic agencies with valuable instruction in the 
detection of improvised explosive devices, conducting terrorism 
analysis, and mapping cultural terrain. Lastly, DOD fosters interagency 
integration via the embedding of DOD personnel in other agencies, 
including the National Counterterrorism Center, FBI Field Intelligence 
Groups, and FBI joint terrorism task forces.
    Mr. Gibson. What are some recommendations for improving 
intelligence collaboration across the whole-of-government?
    Admiral McRaven. Intelligence collaboration has increased 
significantly as a result of 10+ years of war. The single thread that 
forced this collaboration, across the whole-of-government, is our 
national security interest. Looking toward the future, we must continue 
to wrap our challenges with policies, authorities, process, and 
information sharing architectures with this common unifying force of 
national security.
    We must continue to create conditions for success. For instance, we 
must resource efforts like the Department of Defense Intelligence 
Information Enterprise (DI2E) and the Intelligence Community 
Information Technology Enterprise (IC ITE), and force convergence 
between these communities of interest. DI2E and IC ITE convergence has 
the potential to significantly increase the speed of knowledge to 
decision/action by our most senior leaders of government. It will 
increase information transparency and knowledge sharing at all levels. 
Increased resources for DI2E and IC ITE will only achieve a technical 
solution and many could argue that technology is not a limiting factor. 
To a certain extent, they would be correct. Any advances to force 
convergence, from a technology perspective, must be accompanied by 
reformation of policy that inhibits collaboration.
    The policies that protect our nation's critical information and 
intelligence are the same policies that inhibit collaboration. The 
Intelligence, Law Enforcement, and Diplomatic communities operate 
within complicated yet essential frameworks to conduct the business of 
national security. We must continue to explore policy reforms that 
simultaneously safeguard our knowledge and increase transparency, while 
being mindful of intelligence oversight and information assurance. 
Likewise, any changes in policy must account for one of our greatest 
force multipliers, our coalition partners.
    The decade of war has been complimented by the efforts of our 
coalition partners. At the lowest tactical echelons, we achieve 
remarkable success on the battlefield. We must continue to seek reform 
in policies that enable government to government information sharing by 
empowering senior leaders and Commanders with greater latitude to make 
the call, ease restrictions, and increase collaboration.

                                  <all>

</pre></body></html>
